HHS/OIG, Audit -"Medicaid Hospital Outlier Payments in Illinois for the Period of State Fiscal Years 1998 Through 2002,"(A-07-04-04031)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Hospital Outlier Payments in Illinois for the Period of State Fiscal Years 1998 Through
2002," (A-07-04-04031)
May 12, 2005
Complete
Text of Report is available in PDF format (1.22 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.EXECUTIVE SUMMARY:
Our objective was to determine whether Illinoiss method of computing inpatient hospital cost outlier
payments resulted in reasonable payments.  Illinoiss method of computing inpatient hospital cost
outlier payments did not result in reasonable payments.  Specifically, Illinois (1) used an out-of-date
factor to convert billed charges to costs and (2) did not have adequate policies and procedures in
place to monitor cost outlier payments.  As a result, cost outlier payments increased significantly
and at a faster rate than other types of Medicaid payments.  If Illinois had applied a more current
factor to convert billed charges to costs, it could have saved approximately $56.5 million between
1998 and 2002 for the three hospitals we reviewed.  We recommended that Illinois revise its method
of computing cost outlier payments to ensure that payments are reasonable and that Illinois develop
policies and procedures to more closely monitor cost outlier payments.  Illinois acknowledged
that cost outlier payments have increased significantly, but stated that the appropriateness of the
increase must be viewed in the context of the current inpatient rate freeze.  Illinois also stated
that the State fiscal year (FY) 2006 proposed budget includes increasing the threshold amount in order
to hold cost outlier payments at their FY 2005 levels.